              Audit Report



The Social Security Administration’s
     Contract with Compuware
            Corporation




        A-13-12-11297 | June 2013
MEMORANDUM


Date:      June 14, 2013                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Contract with Compuware Corporation (A-13-12-11297)

           The attached final report presents the results of our audit. Our objectives were to (1) ensure the
           Social Security Administration (SSA) received the goods and/or services for which it contracted
           with Compuware Corporation (Compuware); and (2) review the services provided by
           Compuware and the related costs charged to SSA for adherence to the negotiated contract terms
           and applicable regulations.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Contract with
Compuware Corporation
A-13-12-11297
June 2013                                                                  Office of Audit Report Summary

Objectives                                Our Findings

To (1) ensure the Social Security         Our review of delivery order invoices and interviews with SSA
Administration (SSA) received the         personnel found SSA received the goods and/or services for which
goods and/or services for which it        it contracted, and Compuware submitted invoices accurately and
contracted with Compuware                 timely. We also determined SSA made accurate and timely
Corporation (Compuware); and              payments to Compuware. Generally, the services provided and
(2) review the services provided by       related costs charged to SSA adhered to the negotiated contract
Compuware and the related costs           terms and applicable regulations. However, we found instances
charged to SSA for adherence to the       where Compuware did not comply with contract terms.
negotiated contract terms and             Specifically, the contractor did not (a) notify SSA when employees
applicable regulations.                   left its employment and (b) retain computer security-related training
                                          documents. In addition, CPSPM’s Contractor Suitability System
Background                                did not reflect current suitability information.

Compuware provided SSA with               Our Recommendations
software maintenance and license
upgrades for various Compuware            We recommend that SSA:
mainframe and distributed software
products. Compuware software              1. Remind Compuware it must comply with the terms of current
products are essential to SSA’s day-to-      and future contracts it has with SSA. Specifically, it should
day mainframe operating environment.         notify appropriate Agency personnel of any changes in staff’s
                                             employment status, and remind the contractor to retain
In September 2009, SSA awarded a             documents associated with the contract.
$54.2 million, 5-year (base year plus
4 option years), firm-fixed-price         2. Ensure Center for Personnel Security and Project Management
delivery order contract,                     is properly notified of all contract awards, delivery orders,
SS00-09-31564, to Compuware. The             terminations, and contractor employee work status changes
delivery order performance period was        when suitability requirements are applicable.
September 30, 2009 through
September 29, 2014.                       SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Contractor Notification of Change in Employment Status ........................................................4
     Computer Security-Related Training Documents ......................................................................4
     CPSPM Contractor Suitability System ......................................................................................5
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................6
Agency Comments ...........................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C - Major Contributors .............................................................................................. C-1




SSA’s Contract with Compuware Corporation (A-13-12-11297)
ABBREVIATIONS
C.F.R.              Code of Federal Regulations

CO                  Contracting Officer

Compuware           Compuware Corporation

COTR                Contracting Officer Technical Representative

CPSPM               Center for Personnel Security and Project Management

FAR                 Federal Acquisition Regulation

FISMA               Federal Information Security Management Act

GSA                 General Services Administration

MIPS                Millions of Instructions per Second

OAG                 Office of Acquisition and Grants

OIG                 Office of the Inspector General

Pub. L. No.         Public Law Number

SSA                 Social Security Administration

U.S.C.              United States Code




SSA’s Contract with Compuware Corporation (A-13-12-11297)
OBJECTIVE
The objectives of our review were to (1) ensure the Social Security Administration (SSA)
received the goods and/or services for which it contracted with Compuware Corporation
(Compuware) and (2) review the services provided by Compuware and the related costs charged
to SSA for adherence to the negotiated contract terms and applicable regulations.

BACKGROUND
According to Agency staff, for more than 30 years, Compuware has provided SSA with software
maintenance and license upgrades for various Compuware mainframe and distributed software
products. The Agency uses Compuware mainframe software products on some of the mainframe
systems at its National Computer and Second Support Centers. Compuware software products
are essential to SSA’s day-to-day mainframe operating environment. For example, SSA uses the
Compuware software products to diagnose and resolve application and system failures, capture
critical application performance data, monitor network traffic, and trace network traffic to
identify network or application problems.

In September 2009, SSA awarded a $54.2 million, 5-year (base year plus 4 option years), firm-
fixed-price 1 delivery order 2—SS00-09-31564—to Compuware. This order was placed against
the General Services Administration (GSA) Federal Supply Schedule, Contract Number
GS-35F-5337H, for continued software maintenance support and software licensing upgrades.
The delivery order performance period was September 30, 2009 through September 29, 2014
(see Table 1).




1
 A firm-fixed-price contract provides for a price that is not subject to any adjustment on the basis of the contractor’s
cost experience in performing the contract. Federal Acquisition Regulation (FAR) § 16.202-1. This contract type
places on the contractor maximum risk and full responsibility for all costs and resulting profit or loss. Id.
2
  A delivery order is an order for supplies placed against an established contract or with Government sources. See
FAR § 2.101. According to an SSA Official, in this instance, software maintenance is considered a product and not
a service. GSA defines software maintenance as a product, which includes the publishing of bug/defect fixes via
patches and updates/upgrades in function and technology to maintain the operability and usability of the software
product.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                                             1
                     Table 1: Delivery Order Performance Periods and Costs
                             Periods of Performance                                Costs
                   Base Year                  9/30/09-9/29/10                  $15,000,000 3
                  Option Year 1               9/30/10-9/29/11                   $ 9,800,000
                  Option Year 2               9/30/11-9/29/12                   $ 9,800,000
                  Option Year 3               9/30/12-9/29/13                   $ 9,800,000
                  Option Year 4               9/30/13-9/29/14                   $ 9,800,000
                       Total                                                    $54,200,000

SSA uses the Gartner’s “Millions of Instructions per Second” (MIPS) measurement unit to assess
capacity required for its mainframe systems. SSA owns software licenses based on MIPS for
the Compuware mainframe software products it uses. Under Delivery Order SS00-09-31564,
SSA could use up to 80,000 MIPS during any performance period without penalty. The delivery
order also provides for purchase of additional software license upgrades to cover increases in
mainframe hardware capacity at the negotiated firm-fixed-price.

After the second performance period under Delivery Order SS00-09-31564, SSA chose not to
exercise the remaining option years of the delivery order; and determined it was more cost-
beneficial to establish a new contract with Compuware for unlimited MIPS capacity due to
increase in Agency’s workload. Under Delivery Order SS00-09-31564, the Agency purchased
an additional 5,000 MIPS in May 2011. SSA projected it would exceed MIPS capacity again in
August 2011. According to data and projections provided by the Agency, in the future, SSA will
require significant increases in MIPS it uses to process its workloads. The Agency expects MIPS
usage to increase from about 25,000 in Fiscal Year 2007 to about 154,000 in Fiscal Year 2016.
See Chart 1 for details. The new contract —Contract Number SS00-11-60060— covers a
10-year performance period (base year plus 9 option years). The contract performance period is
September 30, 2011 to September 29, 2021.




3
 The base year cost includes the cost of the additional MIPS licenses purchased as well as the cost of maintenance.
Base year maintenance cost is based on the previous year (2008) MIPS ceiling rate.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                                         2
                            Chart 1: Actual and Future Projected MIPS Use 4



       180,000
       160,000
       140,000
       120,000
       100,000                                                                  Actual MIPS
                                                                                Usage
         80,000
                                                                                Projected
         60,000                                                                 MIPS Usage
         40,000
         20,000
             -
                   2007 2008 2009 2010 2011 2012 2013 2014 2015 2016

Under the Office of the Deputy Commissioner for Budget, Finance and Management, the Office
of Acquisition and Grants (OAG) is responsible for Agency-wide acquisitions. In addition to
OAG’s contracting officer (CO), acquisition efforts also involve the contracting officer’s
technical representative (COTR). The COTR for Delivery Order SS00-09-31564 is in the Office
of the Deputy Commissioner for Systems’ Division of Resource Management and Acquisition.

To achieve our audit objectives, we reviewed information pertaining to the goods and/or services
received and related costs charged to SSA under Delivery Order SS00-09-31564 for the period
September 30, 2009 to September 29, 2011. Seven Compuware employees were authorized to
work under the delivery order for this period. During this period, SSA authorized three
modifications and obligated about $27.2 million. We also interviewed Agency personnel
responsible for the delivery order to determine whether SSA personnel were properly monitoring
the contractor’s compliance. See Appendix A for the scope and methodology of our audit.

RESULTS OF REVIEW
Our review of delivery order invoices and interviews with SSA personnel found SSA received
the goods and/or services for which it contracted, and Compuware submitted invoices accurately
and timely. We also determined SSA made accurate and timely payments to Compuware.
Generally, the services provided and related costs charged to SSA adhered to the negotiated
contract terms and applicable regulations. However, we found instances where Compuware did
not comply with contract terms. Specifically, the contractor did not (a) notify SSA when



4
    SSA provided us past and future MIPS usage data.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                      3
employees left its employment and (b) retain computer security-related training documents. In
addition, the Center for Personnel Security and Project Management’s (CPSPM) Contractor
Suitability System did not reflect current suitability information.

Contractor Notification of Change in Employment Status
Compuware did not notify SSA when two individuals left its employment, as required. CPSPM
is responsible for the Agency’s suitability program. CPSPM determined seven Compuware
employees were “suitable” 5 to perform work under Delivery Order SS00-09-31564. When
contractor employees need access to an SSA facility or system to complete work, they need to
have a suitability clearance to obtain a badge (credential) that will allow them access to the SSA
facility or system, as needed. A contractor employee who requires physical access to SSA
facilities must complete and sign Form SSA-4395, Application for Access to SSA Facilities, and
have it signed by the contractor employee and COTR. Of the seven contractor employees, two
ended employment with Compuware during our audit period. One left Compuware employment
on June 1, 2010, and the other left on April 7, 2011. As of October 4, 2012, these two
individuals remained classified as “active” contractor employees in CPSPM’s Contractor
Suitability System; however, they did not have SSA credentials that allowed them physical
access to SSA facilities. In addition to indicating current employment with the contractor,
CPSPM staff explained the active designation implied the individuals were working on an
existing contract.

According to Section C.6.K: Security and Suitability Requirement of Delivery Order
SS00-09-31564, a contractor is required to notify the COTR if there is any change in an
individual’s employment status. For example, a company should notify the COTR when the
contractor employee no longer works for the company, no longer performs work related to the
contract, etc. Once notified, the COTR is to inform CPSPM and the CO of changes in
employment status within 1 business day.

Computer Security-Related Training Documents
Compuware did not retain all signed security bulletins, as required, for the seven employees who
acknowledged they completed computer security training. On July 23, 2012, we requested the
applicable signed copies of the security bulletins from Compuware. Compuware staff
subsequently provided signed security bulletins for five employees.

The Federal Information Security Management Act (FISMA) requires 6 that all Agency
employees and contractors receive security awareness training. The training is required for all



5
 According to 5 C.F.R. § 731.101(a), suitability is determined based on a person’s character or conduct that may
have an impact on the integrity or efficiency of the service.
6
 Federal Information Security Management Act of 2002, Pub. L. No. 107-347, Title III, Section § 3544; 44 U.S.C. §
3544.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                                          4
contractors including those who do not have access to electronic information systems.
According to Section C.7.3: Contractor Responsibilities related to FISMA Training
Requirements of Delivery Order SS00-09-31564, “Following contract award, the contractor shall
ensure that all contractor employees performing under this contract have signed the security
bulletin entitled ‘SSA Security Awareness: Contractor Personnel Security Confirmation’ . . . The
contractor shall retain copies of these signed bulletins for potential future SSA audits for a period
of three years after final payment . . . .” This requirement also applies to contractor employees
added after work under the contract has begun. The signed bulletin acknowledges completion of
required training. Furthermore, contractor employees are to sign security bulletins, annually.

Compuware provided signed security bulletins for five of its seven employees. Of the five, one
bulletin was signed, but dated after our request for the documents. This bulletin applied to a
performance period outside our audit period. We did not receive signed bulletins for the
remaining two employees. Compuware staff explained the individuals were no longer with the
company.

CPSPM Contractor Suitability System
CPSPM’s Contractor Suitability System listed Compuware employees as “active,” although
work was no longer occurring under Delivery Order SS00-09-31564. In October 2012, we asked
CPSPM staff the suitability status of Compuware employees. In response to our inquiry, staff
reviewed data in their Contractor Suitability System. On October 4, 2012, staff reported and
provided documentation indicating contractor employees remained classified as “active” under
delivery order SS00-09-31564 even though the delivery order ended on September 29, 2011.
According to Agency staff, none of the seven contractor employees had access to SSA facilities.
CPSPM staff also reported that, according to its Contractor Suitability System, there was no
Compuware employee information recorded under the new contract — Contract Number
SS00-11-60060.

According to staff, CPSPM was not informed that work was no longer occurring under Delivery
Order SS00-09-31564. We believe that CPSPM’s Contractor Suitability System should
accurately reflect suitability information.

CONCLUSIONS
SSA received the goods and/or services for which it contracted with Compuware to receive, and
invoices were submitted accurately and timely. SSA made accurate and timely payments to
Compuware. Generally, the services provided and related costs charged to SSA adhered to the
negotiated contract terms and applicable regulations. However, we found instances where
Compuware did not (a) notify SSA when employees left its employment or (b) retain computer
security related training documents. In addition, the CPSPM Contractor Suitability System did
not reflect current suitability information.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                           5
RECOMMENDATIONS
We recommend that SSA:

1. Remind Compuware it must comply with the terms of current and future contracts it has with
   SSA. Specifically, it should notify appropriate Agency personnel of any changes in staff’s
   employment status, and remind the contractor to retain documents associated with the
   contract.

2. Ensure CPSPM is properly notified of all contract awards, delivery orders, terminations, and
   contractor employee work status changes when suitability requirements are applicable.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix B.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                         6
                                     APPENDICES




SSA’s Contract with Compuware Corporation (A-13-12-11297)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed the Delivery Order SS00-09-31564 between the Social Security Admiration (SSA)
    and Compuware Corporation and all modifications for performance period
    September 30, 2009 to September 29, 2011.

•   Reviewed applicable sections of the Federal Acquisition Regulation, SSA’s Administrative
    Instructions Manual System, and SSA’s Acquisition Regulations.

•   Interviewed SSA personnel to discuss required delivery order deliverables, payments terms,
    and suitability requirements.

•   Obtained and reviewed a list of contractor employees who had a suitability determination.

•   Obtained invoices for Delivery Order SS00-09-31564 from SSA’s Office of Travel and
    Administrative Payment Services to determine whether the Agency paid invoices accurately
    and timely.

           o Invoice #1 - $15,000,000.00

           o Invoice #2 - $9,800,000.00

           o Invoice #3 - $2,373,766.65

We conducted our audit in Baltimore, Maryland, from June 2012 to January 2013. We
determined the data used for this audit were sufficiently reliable to meet our audit objective. The
entities audited were the Office of Acquisition and Grants in the Office of Budget, Finance and
Management and the Division of Resource Management and Acquisition under the Office of
Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provided a reasonable basis
for our findings and conclusions based on our audit objectives.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                       A-1
           Appendix B – AGENCY COMMENTS




                                          SOCIAL SECURITY
MEMORANDUM


Date:      May 31, 2013                                                          Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Contract
           with Compuware Corporation” (A-13-12-11297)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.
           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.



           Attachment




           SSA’s Contract with Compuware Corporation (A-13-12-11297)                                      B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SOCIAL SECURITY ADMINISTRATION’S CONTRACT WITH COMPUWARE
CORPORATION” (A-13-12-11297)


Recommendation 1

Remind Compuware it must comply with the terms of current and future contracts it has with
SSA. Specifically, it should notify appropriate Agency personnel of any changes in staff’s
employment status, and remind the contractor to retain documents associated with the contract.

Response

We agree. By June 30, 2013, we will issue Compuware a reminder to comply with the terms of
contract #SS00 11-60060 and any future contracts it has with us. We will specifically remind
Compuware to notify appropriate agency personnel of any changes in staff’s employment status
and to retain documents associated with the contract.

Recommendation 2

Ensure Center for Personnel Security and Project Management is properly notified of all contract
awards, delivery orders, terminations, and contractor employee work status changes when
suitability requirements are applicable.

Response

We agree. Currently, we send a notification to the Center for Personnel Security and Project
Management (CPSPM) of all contracts, orders, calls, and modifications with security
classifications (security requirements are applicable) through the SSA's Streamlined Acquisition
System (SSASy). CPSPM receives the SSASy notification through its Contractor Suitability
System. Our Security and Suitability Requirements clause 0401 provides that Contracting
Officer Technical Representatives (COTR) are responsible for notifying CPSPM of contractor
employee status changes. We will remind all COTRs of this responsibility by June 30, 2013.




SSA’s Contract with Compuware Corporation (A-13-12-11297)                                     B-2
Appendix C - MAJOR CONTRIBUTORS
Shirley E. Todd, Director, Evaluation Division

Randy Townsley, Audit Manager

Upeksha van der Merwe, Auditor-in-Charge




SSA’s Contract with Compuware Corporation (A-13-12-11297)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
